U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 12, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Electronic Privacy Information Center v. Department of Commerce, No. 19-777
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 16,
2019. The government’s response is now due, after one extension, on February 18, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including March 19, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0777
ELECTRONIC PRIVACY INFORMATION CENTER
DEPARTMENT OF COMMERCE, ET AL.

MARC ROTENBERG
ELECTRONIC PRIVACY INFORMATION
CENTER (EPIC)
1519 NEW HAMPSHIRE AVENUE NW
WASHINGTON, DC 20036
202-483-1140
ROTENBERG@EPIC.ORG.

